WAIVER

11.tt)
OCT 1 6 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

KEITH PUNTENNEY, ET AL.

19-447
IOWA UTILITIES BOARD, ET AL.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Office of Consumer Advocate, Iowa Dept. of Justice

[1] I am a member of the Bar of the Supreme Court of the United States.
J I am not presently a member the Bar of this art. Should a response be requested, the response
will be filed by a Bar me er.
Signature
Date.

10/15/2019

(Type or print) Name

John S. Long, Attorney
Q Mr. El Ms.

Firm

❑ Miss

Office of Consumer Advocate, Iowa Dept. of Justice

Address

1375 E. Court Ave

City & State
Phone

❑ Mrs.

Des Moines, IA

515-722-7200

Zip
Email

50319

John.Long@oca.iowa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Eduardo E. Santacana, esantacana@keker.com

THOMAS J. MILLER

1375 EAST COURT AVENUE
DES MOINES, IA 50319-0063
P: 515-725-7200 • F: 515-725-7221
www.lowaOCAAoca.iowa.qov

ATTORNEY GENERAL

MARK R. SCHULING
CONSUMER ADVOCATE

IOWA DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
OFFICE OF CONSUMER ADVOCATE

October 15, 2019

Supreme Court of the United States
1 First St NE
Washington, DC 20543
RE:

Keith Puntenney, et al. v. Iowa Utilities Board, et al.

To Whom it May Concern:
Enclosed please find the Office of Consumer Advocate's Waiver for filing in the abovecaptioned case.
Thank you.

John S. Long
Attorney
Enclosure
Cc: Samantha Norris
Benjamin John Flickinger
Iowa Utilities Board
1375 East Court Avenue, Room 69
Des Moines, Iowa 50319-0069

Matthew C. McDermott
Espnola F. Cartmill
Belin McCormick, P.C.
666 Walnut Street, Suite 2000
Des Moines, Iowa 50309-3989

Bret Alan Dublinske
Brant M. Leonard
Fredrickson & Byron, P.A.
505 East Grand Avenue, Suite 200
Des Moines, Iowa 50309

Eduardo E. Santacana
Jay Rapaport
Keker, Van Nest & Peters LLP
633 Battery Street San Francisco, CA 94111

Wallace L. Taylor
Law Offices of Wallace L. Taylor
118 3rd Ave. S.E., Suite 326
Cedar Rapids, Iowa 52401

RECEIVED
OCT 2 4 2019
OFFICE O HLERK
SUPREMECOURT. U.S.

